Case No. ________________

IN THE
SUPREME COURT OF THE UNITED STATES
____________________________
D.W., a Minor
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
____________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE CALIFORNIA
COURT OF APPEAL, THIRD APPELLATE DISTRICT
_________________________
PETITION FOR A WRIT OF CERTIORARI
___________________________

JENNIFER A. GIBSON
USSCT Bar No. 281877
Gibson Appellate Law
8698 Elk Grove Blvd Suite 1-211
Elk Grove, CA 95624
Phone: (916) 714-6675
Mobile: (916) 207-5931
Email: jen.gibson@comcast.net
Counsel For Petitioner D.W., A Minor

QUESTION PRESENTED

Did The Juvenile Court Violate A Minor’s Right To Due
Process Under The Fourteenth Amendment When It Granted
The Prosecutor’s Request To Amend A Petition To State An
Alternative Factual Basis For An Offense After The Matter Had
Been Tried And Submitted For Decision, Without Requiring The
Prosecutor To Provide New Written Notice And Without
Granting The Minor The Opportunity To Prepare A Defense To
The Amended Allegation?

i

PARTIES TO THE PROCEEDING
D.W., a minor and petitioner on review, was the appellant
below.
The People of the State of California, respondent on review, was
the respondent below.

ii

TABLE OF CONTENTS
QUESTION PRESENTED ........................................................................ i
PARTIES TO THE PROCEEDING ......................................................... ii
TABLE OF CONTENTS .......................................................................... iii
TABLE OF AUTHORITIES CITED ........................................................ v
PETITION FOR WRIT OF CERTIORARI .............................................. 1
OPINIONS BELOW.................................................................................. 1
JURISDICTION ........................................................................................ 2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED .. 2
STATEMENT OF THE CASE .................................................................. 3
I. FACTUAL BACKGROUND .............................................................. 5
II. PROCEDURAL HISTORY............................................................. 12
REASONS TO GRANT THE WRIT ....................................................... 17
A. For Notice In A Juvenile Petition To Be Adequate Under the
Due Process Clause, It Must, At A Minimum, Inform The Minor Of
Particularized Factual Allegations Underlying The Offense. ....... 18
B. If The Focus Of An Assessment Of The Adequacy Of Notice In
A Juvenile Petition Is The Particularized Facts That Allege How A
Criminal Statute Was Violated, Then A Material Alteration Of
Those Facts To Allege An Alternative Factual Basis For The
Violation Of The Same Statute Renders The Original Notice
Inadequate Under The Due Process Clause. .................................. 24
C. Because The Procedural Safeguards In Adult Criminal
Proceedings Would Have Prevented A Late-Stage Amendment Of
The Material Facts Underlying A Criminal Allegation, The Court
Could Look To Those Safeguards To Determine Whether The
Amendment Here Violated Due Process. ....................................... 34
CONCLUSION ........................................................................................ 39
iii

CERTIFICATION ................................................................................... 40
APPENDIX .............................................................................................. 41
ATTACHMENT A ............................................................................... 41
Transcript of the Juvenile Court’s Ruling
ATTACHMENT B ............................................................................... 41
Opinion and Modified Opinion of the California Court of Appeal for
the Third Appellate District
ATTACHMENT C ............................................................................... 41
Supreme Court of California Order Denying Discretionary Review

iv

TABLE OF AUTHORITIES CITED
CASES
United States Supreme Court Cases
Allen v. Illinois, 478 U.S. 364 (1986) ..................................................... 18
Application of Gault, 387 U.S. 1 (1967) ............................. 18 and passim
Cole v. Arkansas, 333 U.S. 196 (1948) ................................................... 17
David Levell W. v. California, 449 U.S. 1043 (1980)............................. 33
De Jonge v. Oregon, 299 U.S. 353 (1937) .......................................... 21,23
Ex Parte Bain, 121 U.S. 1 (1887)....................................................... 27,28
Gray v. Netherland, 518 U.S. 152 (1996) ............................................... 33
Haley v. Ohio, 332 U.S. 596, 601 (1948) ................................................ 38
Hamling v. United States, 418 U.S. 87 (1974) ....................................... 22
In re Oliver, 333 U.S. 257 (1948) ............................................................ 33
In re Winship, 397 U.S. 358 (1970) ........................................................ 27
McKeiver v. Pennsylvania, 403 U.S. 528 (1971) ............................... 17,31
Reno v. Flores, 507 U.S. 292 (1993)........................................................ 38
Russell v. United States, 369 U.S. 749 (1962) ................... 19 and passim
Salinger v. United States, 272 U.S. 542 (1926) ..................................... 30
Stirone v. United States, 361 U.S. 212 (1960) ................... 24 and passim
United States v. Ballard, 322 U.S. 78 (1944)......................................... 31
United States v. Cotton, 535 U.S. 625 (2002)......................................... 27
United States v. Miller, 471 U.S. 130 (1985) ..................... 27 and passim

v

State Cases
In re Korry K., 175 Cal. Rptr. 91, 93 (Cal. Ct. App. 1981) .................... 36
People v. Burnett, 83 Cal.Rptr.2d 629, 654 (Cal. App. Ct. 1999) .......... 37
People v. Goolsby, 363 P.3d 623, 627 (Cal. 2015) ............................. 37,38
People v. West, 477 P.2d 409, 419 (Cal. 1970)........................................ 35
STATUTES
28 U.S.C. § 1257 ........................................................................................ 2
California Penal Code section 1009 (West 2020)..........................35,36,37
California Penal Code section 148 (West 2016)..................................... 11
California Penal Code section 211 (West 2020)..................................... 10
California Penal Code section 243 (West 2016)..................................... 11
California Penal Code section 245 (West 2020)..................................... 10
California Welfare & Institutions Code section 602 (West 2020) ........ 10
California Welfare & Institutions Code section 635 (West 2016) ........ 36
CONSTITUTIONAL PROVISIONS
United States Constitution amendment V .......................... 2 and passim
United States Constitution amendment XIV ...................... 2 and passim

vi

PETITION FOR WRIT OF CERTIORARI
D.W., a minor, respectfully petitions for a writ of certiorari to
review the judgment below issued by the Third Appellate District of
the California Court of Appeal.
OPINIONS BELOW
The transcript of the juvenile court’s ruling appears at Appendix
A to the petition.
The opinion and modified opinion of the California Court of
Appeal for the Third Appellate District, the highest state court to
review the merits, appear at Appendix B to the petition and are
unpublished.
The order from the Supreme Court of California denying
discretionary review appears at Appendix C.

1

JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1257(a). The
California Court of Appeal issued its Opinion on January 17, 2020. A
timely petition for rehearing was filed on January 31, 2020. It was
denied on February 14, 2020. The Court of Appeal’s Opinion became
final on February 16, 2020. A timely petition for review was filed in
the California Supreme Court on February 26, 2020. The California
Supreme Court denied the petition for review on April 15, 2020.
The original deadline for filing the Petition for Writ of Certiorari
in this Court was July 14, 2020. By Order dated March 19, 2020, this
Court extended the deadline for filing a Petition for Writ of Certiorari
due on or after March 19, 2020, by sixty days or one hundred and fifty
days from the denial of review by the California Supreme Court.

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED

United States Constitution amendment V provides in relevant
part, “No person shall … be deprived of life, liberty, or property,
without due process of law;”
United States Constitution amendment XIV, section 1, provides
in relevant part, “nor shall any state deprive any person of life, liberty,
or property, without due process of law;”

2

STATEMENT OF THE CASE
The proceedings below arose out of an encounter between Mr.
Channing Salisbury and five minors, one of who was D.W. Over a
thirty-minute period, the parties had three distinct altercations that
took place in three different locations each involving unique details.
The second incident, which was captured by surveillance cameras,
involved a pipe. The third incident, which took place later and in a
different location, involved a two-by-four with a nail. This third
incident was not filmed.
Based on the encounter between Mr. Salisbury and the minors,
the prosecution filed a petition alleging that D.W. committed three
felonies and two misdemeanors. Mr. Salisbury was not charged. One
of the felonies, Count Three, alleged that D.W. assaulted Mr. Salisbury
with a deadly weapon “a pipe.” The evidence at trial, specifically the
surveillance video footage of the incident in the La Viva Market
parking lot, placed the issue of self-defense in contention because it
showed that D.W. only threw the pipe at Mr. Salisbury after Mr.
Salisbury began swinging his belt buckle at D.W.’s head and face.
After the matter was submitted for decision, the juvenile court
sua sponte raised the issue of whether there was a fatal variance as to
Count Three because, in its estimation, the evidence at trial was that
D.W. assaulted Mr. Salisbury with a two-by-four with a nail, not a
3

pipe. Over trial counsel’s objection on due process grounds, the
juvenile court granted the prosecution’s request to amend Count Three
and substitute two-by-four with a nail for pipe. In doing so, the
juvenile court explained that because the charge, assault with a deadly
weapon, remained the same, the offense was the same, and D.W. was
not prejudiced by the amendment. The juvenile court then found
Count Three as amended to be true.
The California Court of Appeal agreed that the Due Process
Clause did not preclude the juvenile court from amending Count Three
to substitute two-by-four with a nail for pipe because the label for the
offense, assault with a deadly weapon, remained the same.
Both the juvenile court and the Court of Appeal are wrong. The
juvenile court’s decision to amend the petition without requiring
written notice and without granting D.W. the opportunity to prepare a
defense deprived D.W. of his rights to due process under the
Fourteenth Amendment.

4

I. FACTUAL BACKGROUND

On December 5, 2015, Channing Salisbury, a felon with a
California Law Enforcement Telecommunications System (CLETS)
history that is nineteen-pages long, began threatening several
passengers on a light-rail train. CT 115; 2 RT 375; 1 RT 187; see Opn.
at 4. He eventually turned his attention to Craig Edmonds, who was
much older than Mr. Salisbury and walked with a limp. 2 RT 374-375.
Mr. Salisbury, who is white, called Mr. Edmonds, who is black, the “Nword” and demanded to know what Mr. Edmonds “was looking at.” 2
RT 375. Mr. Edmonds responded, telling Mr. Salisbury “to sit down
and stop threatening people.” 2 RT 375. In response, Mr. Salisbury
threatened to “kick” Mr. Edmonds’ “ass.” 2 RT 375-376.
When Mr. Edmonds got off the train, Mr. Salisbury got off too. 2
RT 376. Mr. Salisbury took out a knife. 2 RT 376-377, 378. “[H]e got
down in a squat and started putting his hands out and like he was
going to do some – commit some sort of Karate act on me….” 2 RT 376.
Believing Mr. Salisbury intended to stab him, Mr. Edmonds also took
out his pocketknife and stood his ground. 2 RT 377. A security guard
arrived and ordered Mr. Salisbury to stop. 2 RT 367,364-365,377.
Ignoring her orders, Mr. Salisbury charged at her with his knife, twice.
2 RT 367, 364-365, 377.

5

Eventually, law enforcement responded, and Mr. Salisbury was
arrested for assault with a deadly weapon and a probation violation. 2
RT 387. Before he was arrested, Mr. Salisbury threw away his knife.
2 RT 386. It was found the next day. 2 RT 365, 368, 385-386. Mr.
Edmonds chose not to press charges against Mr. Salisbury. 2 RT 379.
He was tired and just wanted to go home. 2 RT 379.
The First Incident: Dollar General
The current case arose out of a thirty-minute encounter between
Mr. Salisbury and five minors, including D.W., on January 26, 2017, a
little over a year after the light-rail incident. During that thirtyminute encounter, the parties had three discrete altercations.
The first altercation took place when Mr. Salisbury encountered
the minor, D.W., and four of his friends, one of whom was a girl, in
front of the Dollar General in Del Paso Heights, a neighborhood in
Sacramento, California that is comprised primarily of AfricanAmerican, Latino, and Asian residents. 1 RT 290. The minors alleged
that Mr. Salisbury cut one of them on the arm during this initial
encounter. 1 RT 186, 197; Opn. at 2. Mr. Salisbury testified that one
of the minors, not D.W., punched him in the mouth and took his
money. Opn. at 2. The minors left the Dollar General, trying to get
away from Mr. Salisbury. 1 RT 220-221,134; Opn. at 2.

6

Surveillance cameras recorded Mr. Salisbury following the
minors as they tried to put distance between him and them. Exh 6
Camera 28 at 13:12:03:03-13. He was following them because they
robbed him at the Dollar General and he wanted to keep them in his
sights so they could be “apprehended.” 1 RT 134, 222, 291, 293, 296.
The juvenile court found Mr. Salisbury’s claim that the minors robbed
him not credible. 2 RT 427-28.
The Second Incident: La Viva Market
The surveillance cameras in the parking lot of La Viva Market
captured the second interaction between the minors and Mr. Salisbury.
The footage showed the minors walking away from Mr. Salisbury as he
followed them. At some point, D.W. stopped and grabbed an item that
looked like a pipe from the back of a pick-up truck in the parking lot.
Exh. 6 Camera 29 at 13:12:42-13:13:03; 2 RT 346-347. He and two of
the other minors approached Mr. Salisbury. As they approached Mr.
Salisbury, D.W. kept the “pipe-like” item at his side. Exh. 6 Camera
29 at 13:12:42-13:13:03; 2 RT 346-347.
Mr. Salisbury, who initially backed away, advanced on the
minors, swinging his belt-buckle at D.W.’s head and face. Exh. 6
Camera 29 at 13:12:42-13:13:03; 2 RT 346-347. The belt-buckle hit
D.W. on the arm, leaving a bruise that was visible the next day. Opn.
at 4; 2 RT 320, 356. The surveillance footage showed that after Mr.

7

Salisbury swung the belt-buckle at D.W.’s head and face, D.W. threw
the pipe at Salisbury. Exh. 6 Camera 29 at 13:12:42-13:13:03; 2 RT
346-347.
Another customer alerted the security guard for La Viva Market
about the altercation and he intervened. Opn. at 2; 1 RT 241-243. As
the security guard approached Mr. Salisbury, the minors, including
D.W., walked away. Opn. at 2. When the security guard called for the
minors to come back, they did. Opn. at 2. The girl in the group was
crying and visibly shaken. 1 RT 264-265, 267. She was terrified. 1 RT
264.1 She told the security guard that Mr. Salisbury was “a weirdo”
who had been following them for a while. 1 RT 247-248, 265.
One of the minors showed the security guard a cut on his arm, a
moment that the surveillance camera captured. Exh 6 Camera 30 at
13:14:00-04. Although at trial the security guard could not recall the
minor saying that Mr. Salisbury stabbed him, the security guard
recalled seeing a freshly bleeding cut and concluded that Mr. Salisbury
inflicted the wound. Opn. at 2.
During his trial testimony, Mr. Salisbury admitted that the
minors told the security guard that Mr. Salisbury stabbed one of them:
Q: When you spoke to the security guard, was he
attempting to handcuff you?

1

Mr. Salisbury denied that there was a teenage girl in the group. 1 RT 198. He

8

A: He was confused in the beginning. He said the minors
[sic] said you stabbed him, and I said that’s bullshit.
They just robbed me and that’s complete crap.
1 RT 197; see also 2 RT 348, 350.
On the day of the incident, the security guard asked the minors
if they wanted to file a report. They declined. They just wanted to go
home. 1 RT 248, 253. The security guard allowed them to leave. 1 RT
263. After they walked away, the security guard warned Mr. Salisbury
not to follow them. 1 RT 263, 248-249. Mr. Salisbury ignored the
security guard’s warning and followed the minors anyway. 1 RT 263.
The Third Incident
Sometime after Mr. Salisbury followed the minors from La Viva
Market, there was a third altercation. There was no surveillance
footage of this third incident.
Mr. Salisbury testified that as he followed the minors, he
pretended to have a weapon “to scare them.” 1 RT 236. When he was
interviewed a few days after the incident, he admitted to law
enforcement that he actually had a knife. 1 RT 173, 2 RT 332, 348349, 350-351.
Mr. Salisbury testified that during this third incident, D.W. hit
him with a two-by-four with a nail. Opn. at 3; 1 RT 143-144,167-69.
On a 911 recording that captured audio of the third incident, Mr.
Salisbury could be heard screaming and yelling for help. Opn. at 3.

9

He sustained one laceration to his head that was half-inch by half-inch
and required four stitches. 1 RT 149, 273, 297, 356. He had a swollen
jaw and a laceration on his lip. 1 RT 273, 297, 356.
After Mr. Salisbury identified D.W. from a photo lineup as the
person who attacked him, law enforcement officers detained D.W.
Opn. at 4. Officers ordered D.W. to take off his jacket so that the
officers could photograph the bruise on his arm from Mr. Salisbury’s
belt buckle. 2 RT 320-23. When he refused to have his arm
photographed, three officers wrestled D.W. to the ground, bloodying his
mouth. 2 RT 324-25. D.W. spit the blood in his mouth onto one of the
officer’s shoes and onto the walls of the interview room. 2 RT 326; CT
13.
An original California and Institutions Code section 602 (West
2020) petition alleged five counts against D.W. Opn. at 4. Count One
alleged robbery in violation of California Penal Code section 211 (West
2020). Opn. at 4. Count Two alleged assault by means of force likely
to produce great bodily injury, in violation of California Penal Code
section 245 (a)(4) (West 2020). Opn. at 4. Count Three alleged assault
with a deadly weapon, a pipe, in violation of California Penal Code
section 245 (a)(1). Opn. at 4 (emphasis added). Count Four, which
alleged misdemeanor battery on a peace officer in violation of
California Penal Code section 243(b) (West 2016), was based on the

10

incident where D.W. spit blood on an officer’s shoe. 2 RT 327. And
Count Five alleged misdemeanor resisting or delaying a peace officer
in violation of California Penal Code section 148 (a)(1) (West 2016).
Opn. at 4-5.

11

II. PROCEDURAL HISTORY
Contested Jurisdictional Hearing
A contested jurisdictional hearing was held on all five counts.
Opn. at 5; 2 RT 414. Two days after the trial was completed and the
matter was submitted for decision, the juvenile court called the parties
back to address what the court considered a fatal variance between the
allegation in Count Three of the petition that a pipe was the deadly
weapon used and the proof at trial that indicated a two-by-four with a
nail was used. 2 RT 416; Opn. at 5. Labeling the matter a “technical
legal issue,” the juvenile court asked the parties to submit legal
arguments on whether there was a fatal variance between the evidence
at trial and the original allegation in Count Three. Opn. at 5; 2 RT
416.2
At a hearing on the issue, D.W.’s trial counsel argued that an
amendment of Count Three after the matter had been submitted for
decision would violate due process because the amendment would
2

On appeal, D.W. argued that there was no variance between the allegation in Count

Three and the evidence adduced at trial. The record contained evidence that a pipelike item was thrown at Mr. Salisbury. So, there was no fatal variance between the
evidence at trial and the allegation in Count Three. Rather, the surveillance footage
was fatal to the prosecution’s allegation in Count Three because it showed that
during the only incident during which D.W. used a pipe, Mr. Salisbury struck the
first blow. 1 RT 293-94; Exh. 6 Camera 29 at 13:12:40-13:13:03.

12

result in a different assault with a deadly weapon offense based on
different underlying facts than the one in the original petition and
D.W. had not been given prior notice of that offense. 2 RT 419-20; Opn
at 5. The defense D.W. prepared was in response to the specific
allegation that D.W. assaulted Mr. Salisbury with a pipe or caulking
gun in the La Viva Market parking lot. 2 RT 420-21. His defense was
based on the evidence of what occurred in the La Viva Market parking
lot and the surveillance footage that captured the incident, not what
occurred later during the third incident in a different location. 2 RT
419-20. To amend Count Three at such a late stage prejudiced D.W.
and deprived him of due process. 2 RT 419-21.
The juvenile court granted the prosecution’s motion to amend
Count Three to replace “pipe” with two-by-four with a nail because “at
the end of the day, the charge is the same, the 245 (a) (1).” 2 RT 42425; Opn. at 5.
After amending Count Three, the juvenile court sustained four
of the five allegations in the petition. Opn. at 5. Regarding Counts
Two and Three, the assault allegations, it found that there were “no
facts that support self-defense.” 2 RT 430. Rather, it concluded that
D.W. attacked Mr. Salisbury because he was “irked” at being followed.
2 RT 430. The juvenile court’s findings resulted in two strike offenses

13

for D.W. under California’s three-strikes law. See Cal. Penal Code §
667 (d)(3) (West 2020).
As for Mr. Salisbury’s claim that he began following the minors
because they robbed him, the juvenile court found Mr. Salisbury’s
robbery claim not credible:
The conduct of the juveniles after the Dollar Store seems
inconsistent with Salisbury’s robbery claim. When the
security guard Hinton called them to return … the video
shows they readily complied. After briefly talking to
Salisbury, Hinton called them to return a second time just
as they were about to leave the property of the Viva
market. Once again, they readily complied with his
request. Salisbury’s own conduct seems inconsistent with
the robbery claim.
2 RT 427-28. Based on its findings on the other four counts, the
juvenile court adjudged D.W. a ward of the state. 2 RT 433; CT 107. A
timely notice of appeal was filed on May 16, 2017. CT 119.

14

The Appeal
On appeal, D.W. raised four claims.3 One claim was that the
findings on the Counts Two and Three, the assault counts, were not
supported by substantial evidence because the evidence that D.W.
acted in defense of himself and his friends raised reasonable doubt as
to those counts. Opn. at 6-8.
D.W. also argued on appeal that the juvenile court deprived him
of his right to due process when it granted the prosecution’s request to
amend Count Three after the matter had been submitted for decision.
Opn. at 9-10. He specifically argued on appeal that by replacing “a
pipe” in the petition with “2x4 w/nail,” the juvenile court changed the
fundamental nature of the assault with a deadly weapon count from
one that was based on the circumstances of the second altercation in
the La Viva Market parking lot, to an assault with a deadly weapon
offense that was based on the circumstances of the third altercation,
which occurred later and in a different location. Because the

3

The other two arguments D.W. raised on appeal are not pertinent to the issues raised in

the petition. One claim was a due process argument that because the evidence in the
record placed the issue of self-defense in contention, which then shifted the burden to
the prosecution to prove the lack of self-defense beyond a reasonable doubt, the
juvenile court relieved the prosecution of its burden by failing to consider the
evidence of self-defense. The fourth claim was based on the cumulative error
doctrine.

15

amendment resulted in a different assault with a deadly weapon
offense than the one in the original petition, due process required the
prosecutor to give D.W. written notice of the new offense and required
the juvenile court to grant him the opportunity to prepare a defense to
it.
The court of appeal affirmed the juvenile court’s decision. Opn.
at 9-10. The court of appeal agreed with the juvenile court that the
amendment of Count Three after the matter was submitted for
decision did not violate due process because the charging statute for
the amended allegation, California Penal Code section 245 (a)(1),
remained the same. Opn. at 9; 2 RT 424. The court of appeal also
reasoned that because the proof and defenses would have been the
same, that is that “the minor acted in self-defense, that the minor’s
conduct was reasonable, and the prosecution was required to prove the
minor did not act in self-defense,” the offense was the same and the
amendment did not violate due process. Opn. at 9-10.
The California Supreme Court denied a timely petition for
review.
This petition follows.

16

REASONS TO GRANT THE WRIT

This case presents a substantial question regarding a minor’s
rights under the Due Process Clause of the Fourteenth Amendment to
notice and a fair opportunity to prepare a defense to amended petitions
in juvenile court proceedings. In D.W.'s case, the juvenile court
allowed the prosecutor to materially alter the factual allegations in a
petition, after D.W. had already presented his defense and the matter
was submitted, without requiring written notice or granting D.W. the
opportunity to present a new defense. In other words, the juvenile
court allowed an entirely different offense to be charged—after the
trial was already over.
Distilled to its essence, due process is about fundamental
fairness. McKeiver v. Pennsylvania, 403 U.S. 528, 543 (1971) It was
wrong and fundamentally unfair for the juvenile court to sustain an
allegation that was made for the first time after the matter was
submitted, and to do so without granting D.W. the opportunity to
prepare a defense. Accord Cole v. Arkansas, 333 U.S. 196, 201
(1948)(“It is as much a violation of due process to send an accused to
prison following conviction of a charge on which he was never tried as
it would be to convict him upon a charge that was never made.”)
Because there is no precedent from the Court addressing this
specific issue, the Court should grant the writ to clarify that, even in
17

juvenile court proceedings, if an amendment alleges an alternative
factual basis for an offense in a petition, it creates a new offense
regardless of whether the statutory label for the offense stays the
same. And under those circumstances, the Due Process Clause
requires written notice of the amended allegation and the opportunity
to prepare a defense to it.
A. For Notice In A Juvenile Petition To Be Adequate Under
the Due Process Clause, It Must, At A Minimum, Inform
The Minor Of Particularized Factual Allegations
Underlying The Offense.

The Court has made clear that juvenile court “hearing[s] must
measure up to the essentials of due process and fair treatment.” In re
Application of Gault, 387 U.S. 1, 30 (1967), abrogation on different
grounds recognized in Allen v. Illinois, 478 U.S. 364, 372 (1986). The
minor In re Gault was arrested along with a friend for making lewd
comments over the phone to a neighbor. Id. at 4. The probation officer
filed a petition with the court that was not served on the minor or his
parents. Id. at 5. The petition alleged that the minor was a delinquent
minor but made no reference to the factual basis for the allegation. Id.
A hearing was held during which the judge questioned the minor about
the lewd phone call. Id. at 6. The matter was continued. Id.
Before the next hearing, the minor’s parents received written
notice of the date and time for further hearings on the minor’s

18

“delinquency.” Id. The notice did not include the factual basis for the
minor’s alleged delinquency. See id. At that later hearing, the
probation officers filed a report with the court listing the charge as
“lewd phone calls.” Id. at 7. Following the hearing, the minor was
found to be a delinquent and committed to an institution for a period of
his minority. Id. at 7-8. The Arizona Supreme Court dismissed his
habeas petition and the minor appealed. Id. at 9-10.
One of the issues before the Court was whether the minor and
his parents were entitled to prior written notice of the allegations
against him. Id. at 31. The written notice the sheriff provided to the
parents before the final hearing that informed them of the minor’s
alleged “delinquency,” even when combined with a prior hearing where
the judge interrogated the minor about the lewd phone call, see 387
U.S. at 6-7, did not provide the notice required by the Due Process
Clause:
We cannot agree with the court’s conclusion that adequate
notice was given in this case. Notice, to comply with due
process requirements, must be given sufficiently in
advance of scheduled court proceedings so that reasonable
opportunity to prepare will be afforded, and it must set
forth the alleged misconduct with particularity.
Id. at 33. (emphasis added).
Five years before it issued the decision in In re Gault, the Court
explored the level of particularity the Fifth Amendment required in a
federal indictment in Russell v. United States, 369 U.S. 749, 768.

19

(1962).4 In that case, the petitioners were convicted for refusing to
answer certain questions before a congressional subcommittee. Id. at
752. The statute at issue criminalized a witness’s refusal to answer
questions about a specific subject before Congress. Id. at 754-55, 764.5
Missing from the indictments in Russell were references to the specific
subject matter the defendants refused to answer questions about. Id.
at 764.
The Court held that the subject under inquiry was a factual
detail that was required to “sufficiently apprise the defendant of what
he must be prepared to meet.” Id. “[T]he accused must be apprised by
the indictment, with reasonable certainty, of the nature of the
accusation against him.” Id. at 766 (citations omitted). Without the
specific factual information regarding the subject matter under
inquiry, the indictment did not provide the level of notice the
4

The Fifth Amendment grand jury provision provides, “No person shall be held to

answer for a capital, or otherwise infamous crime, unless on a presentment or
indictment of a grand jury….”
5

2 U.S.C. § 192, provided in pertinent part, “Every person who having been

summoned as a witness by the authority of either House of Congress to give
testimony or to produce papers upon any matter under inquiry before either House,
or any joint committee established by a joint or concurrent resolution of the two
Houses of Congress, or any committee of either House of Congress, willfully makes
default, or who, having appeared, refuses to answer any question pertinent to the
question under inquiry, shall be deemed guilty of a misdemeanor ....”

20

Constitution required. Id. at 764. Although the Court’s decision
revolved around the federal grand jury statute, the decision noted that
the issues raised in the case “brought to bear” the Fifth Amendment’s
Due Process Clause, recognizing that the requirement that an
indictment contains particularized facts to apprise the defendant of
what the defendant should be prepared to meet at trial is rooted not
only in the grand jury requirement but also in the Due Process Clause.
See id. at 761.
The particularized facts requirement serves three purposes that
ultimately ensure fair criminal proceedings. Id. at 763-64,768. First,
requiring particularized facts in the allegation forces the prosecution to
disclose the specific conduct the defendant is alleged to have engaged
in so that a court could determine whether the facts alleged amount to
a criminal offense. Id. at 768; see e.g., De Jonge v. Oregon, 299 U.S.
353, 362 (1937) (holding that the First Amendment precluded
defendant’s conviction for an allegation in the indictment that he
assisted in the conduct of a public meeting which was held under the
auspices of the Communist Party). Second, requiring specificity of the
facts the prosecution alleges constitutes a criminal offense allows the
defendant to raise the issue of an acquittal or conviction if other
proceedings are brought against the defendant for a similar offense.
Russell, 369 U.S. at 764. Finally, and no less important, requiring the

21

prosecution to state the particularized facts underlying the offense
apprises a defendant of what the defendant must be prepared to
defend against. Id. at 763.
If the indictment only includes the charging statute or elements
of the statute without particularized facts, it would be useless to a
defendant in first, understanding the charges against him or her and
second, preparing a defense to meet those charges:
In an indictment upon a statute, it is not sufficient to set
forth the offence in the words of the statute, unless those
words of themselves fully, directly, and expressly, without
any uncertainty or ambiguity, set forth all the elements
necessary to constitute the offence intended to be
punished; Undoubtedly, the language of the statute may
be used in the general description of an offense, but it
must be accompanied with such a statement of the facts
and circumstances as will inform the accused of the
specific offense, coming under the general description,
with which he is charged.
Id. at 765 (internal citations and quotations omitted); see also Hamling
v. United States, 418 U.S. 87, 117-18 (1974) (stating the same). The
Court’s explanation in Russell for the requirement that a charging
document should include particularized facts is consistent with the
analysis in In re Gault regarding the due process requirement that
notice, “set forth the alleged misconduct with particularity.” See 387
U.S. at 33.

22

In De Jonge, the Court held that because the facts in an
indictment alleged only that the defendant assisted in the conduct of a
public meeting that was held under the auspices of the Communist
Party and did not allege that he was teaching or advocating criminal
syndicalism, affirming his conviction on the latter basis “would be
sheer denial of due process.” 299 U.S. at 362. In reaching its holding,
the Court observed that the failure of the indictment to allege that the
defendant was advocating criminal syndicalism denied the defendant a
key benefit of the due process requirement that a charging document
includes the factual basis for the offense: the opportunity to secure
evidence of the nature of the meeting and prepare a defense to show
that the meeting was “orderly and lawful” and was not called or used
for the advocacy of criminal syndicalism or any unlawful action. Id.
Including the specific charging statute in a charging document
without also including the particularized facts that allege how a
criminal statute was violated would be useless to a defendant who has
to prepare a defense to meet the charges against him or her. Russell,
369 U.S. at 765. For this reason, an indictment that recites the factual
allegations underlying the offense is a necessary component for a fair
proceeding under the Due Process Clause. Id.; see In re Gault, 387
U.S. at 33 (stating that constitutionally adequate notice must contain

23

specific charge or factual allegations to be considered and must be
given in advance of hearing to allow the minor to prepare a defense).
B. If The Focus Of An Assessment Of The Adequacy Of
Notice In A Juvenile Petition Is The Particularized Facts
That Allege How A Criminal Statute Was Violated, Then
A Material Alteration Of Those Facts To Allege An
Alternative Factual Basis For The Violation Of The Same
Statute Renders The Original Notice Inadequate Under
The Due Process Clause.

Although the Court has not addressed specifically whether the
amendment of an allegation to state a different factual basis for an
offense in the context of juvenile court proceedings creates a different
offense that requires new notice, it has addressed the issue in the
context of the Fifth Amendment and grand jury indictments. The
Court’s reasoning in those cases, when extended to juvenile court
proceedings, supports a conclusion that when the material facts of an
allegation in a juvenile petition are amended to state an alternative
factual basis for an offense, even if the statutory label for the offense
remains the same, the amendment creates a new offense and due
process requires the prosecution to provide the minor new written
notice and requires the juvenile court to grant the minor an
opportunity to respond.
For example, in Stirone v. United States, 361 U.S. 212 (1960),
the Court held that the trial court’s jury instruction, which allowed the

24

jury to find the defendant guilty based on a charge not included in the
indictment, violated the defendant’s right to be tried on only those
charges included in the grand jury indictment. Id. at 217-19. It was a
fatal error, and his conviction was reversed. Id. at 219.
The grand jury in Stirone indicted the defendant for violating
the Hobbs Act6 by interfering with a cement manufacturer’s shipment
of sand from out of state, sand needed to make the ready-mix concrete
the manufacturer contracted to provide to the builder of a steel
processing plant in Pennsylvania. Id. at 213-14. Over defense
objection, the district court granted the prosecution’s request to admit
evidence that the defendant’s actions also interfered with prospective
steel shipments from the steel plant in Pennsylvania to other states,
which was also a violation of the Hobbs Act. Id. at 214. The district
court then instructed the jury that as far as the interstate commerce
element of the Hobbs Act violation, the jury could consider either that
the sand had been shipped into Pennsylvania or that the concrete

6

The Act, which is codified at 18 U.S.C. § 1951, provides in pertinent part, “(a) Whoever

in any way or degree obstructs, delays, or affects commerce or the movement of any
article or commodity in commerce, by robbery or extortion or attempts or conspires so
to do, or commits or threatens physical violence to any person or property in
furtherance of a plan or purpose to do anything in violation of this section shall be
fined not more than $10,000 or imprisoned not more than twenty years, or both.”

25

manufactured in Pennsylvania would be used to construct a mill that
would produce steel that would be shipped from Pennsylvania to other
states. Id. The defendant was convicted, and in denying his motion for
arrest, acquittal, or a new trial, the district court held that “[a]
sufficient foundation for introduction of both kinds of proof was laid in
the indictment.” Id. On appeal, the Court of Appeals affirmed. Id.
The Court reversed, holding that it was error for the district
court to submit the issue of whether the prospective steel shipments
were enough to invoke Hobbs Act protection to the jury because that
factual allegation was not in the indictment. Id. at 219. The
indictment the grand jury issued alleged a Hobbs Act violation based
only on the interference with the shipment of sand needed to
manufacture the concrete that would be shipped to other states. Id. It
did not include an allegation that the defendant violated the Hobbs Act
by interfering with prospective interstate shipments of steel. Id. at
213-14. By allowing the evidence of interference with the steel
shipments to be considered by the jury as a basis for the Hobbs Act
violation, the district court allowed a constructive or informal
amendment of the grand jury indictment, which violated the Fifth
Amendment. Id. at 217-19.
Although the Court in Stirone did not couch its analysis in terms
of due process, the notice requirement rooted in the Due Process

26

Clause would have also required the Court to reverse the conviction.
See In re Winship, 397 U.S. 358, 359 (1970) (noting that the Due
Process Clause guarantees that parties subject to a deprivation of
liberty or some interest are given advance notice of the allegations
against them and granted the opportunity in a fundamentally fair
proceeding to respond to those allegations). Before the constructive
amendment at trial, the defendant had no notice that he would have to
defend against a Hobbs Act violation based on prospective steel
shipments. See id. at 213-14, 217. He received notice only of the
allegation that he violated the Hobbs Act by interfering with
shipments of sand used to manufacture concrete, and prepared a
defense to the allegation that that specific conduct violated the Hobbs
Act. See id. at 213-14. Nothing else.
In reaching its holding, the Court in Stirone relied on Ex Parte
Bain, 121 U.S. 1 (1887), overruled by United States v. Miller, 471 U.S.
130 (1985), and United States v. Cotton, 535 U.S. 625 (2002). Bain
held that the district court’s amendment of an indictment, which
narrowed the scope of the indictment by striking some of the
particularized facts from the indictment, was an improper amendment
of a grand jury indictment. See 121 U.S. at 13-14. “The party can only
be tried upon the indictment as found by such grand jury, and
especially upon all its language found in the charging part of that

27

instrument.” Id. at 9-10. Because the district court amended the
indictment, “the indictment on which [the defendant] was tried was no
indictment of a grand jury.” Id. at 13.
Years later, the Court held in Miller that an indictment that
was amended to narrow not broaden the factual allegations underlying
the offense in the indictment did not violate the Fifth Amendment
grand jury requirement, overruling Bain. 471 U.S. at 144. In Miller,
the indictment charged the defendant with defrauding his insurer by
consenting to a burglary in advance and then misrepresenting the
value of the loss to the insurer. Id. at 132-33. At trial, the prosecution
only provided proof of the allegation that the defendant had inflated
the value of the stolen goods. Id. at 132. The prosecution moved to
strike the other part of the indictment that alleged prior knowledge of
the burglary and the defendant objected. Id. at 133. The entire
indictment was submitted to the jury and the defendant was convicted.
Id. at 133-34.
On appeal, the defendant argued that the trial proof fatally
varied from the scheme alleged in the indictment and required reversal
of his conviction. Id. at 134. The Ninth Circuit agreed and vacated his
conviction. Id.
Reversing the Ninth Circuit, the Court held that an amendment
of an indictment that narrows and does not expand the allegations in

28

an indictment does not violate the Fifth Amendment grand jury
requirement, overruling Bain. Id. at 144. The Court explained that
Bain stood for two distinct propositions. Id. at 142. One was a
defendant couldn’t be convicted of an offense not charged in the
indictment. Id. at 142-43. The other proposition was rooted in the
constitutional requirement that grand juries issue indictments. Id. at
142. If a court or prosecutor strikes parts of an indictment, the entire
indictment is invalidated because it is no longer the indictment issued
by the grand jury. Id. In overruling this aspect of Bain, the Court
explained that in the case where an indictment is narrowed, the
defendant would have still received notice of the offense on which he or
she is tried. See id. at 134-35. “To the extent Bain stands for the
proposition that it constitutes an unconstitutional amendment to drop
from an indictment those allegations that are unnecessary to an
offense that is clearly contained within it, that case has simply not
survived.” Id. at 144. “[W]here an indictment charges several
offenses, or the commission of one offense in several ways, the
withdrawal from the jury’s consideration of one offense or one alleged
method of committing it does not constitute a forbidden amendment of
the indictment.” Id. at 145 (citing Salinger v. United States, 272 U.S.
542, 548-49 (1926)).

29

The Court reaffirmed, however, the longstanding principle in
Bain, which also was reaffirmed in Stirone. Amendments that result in
an offense different from the offense described in the indictment the
grand jury issues violate a defendant’s right to a grand jury
indictment. Id. at 143.
In distinguishing Stirone, the Court in Miller observed that the
defendant in Stirone was convicted of an offense that was not charged
in the indictment. Id. at 138-40. There were no “notice related
concerns” in Miller. Id. at 134-35. The indictment properly alleged
violations of the statute, and “fully and clearly set forth a number of
ways in which the acts alleged constituted violations.” Id. at 134.
Miller received notice that he would have to defend against the
allegation that he inflated the value of the stolen property. Id. at 13940. “Competent defense counsel certainly should have been on notice
that that offense was charged and would need to be defended against.”
Id. at 134. There was no unfair surprise that evidence of the allegation
that he inflated the value of the stolen property would be introduced at
trial. Id. at 134-35.
The Court in Miller recognized that one key problem with an
amendment like the one in Stirone, which alters the indictment to
allege an offense not charged in the original indictment, is the lack of
notice. See 471 U.S. at 134-35, 138 n.5. That lack of notice deprives a

30

defendant of a fundamentally fair proceeding. See 471 U.S. at 134-35,
138 n.5.
The requirement of adequate notice is rooted in the notion of
fundamental fairness the Due Process Clause guarantees. McKeiver,
403 U.S. at 543. Together Miller and Stirone support the proposition
that the amendment of an indictment during a trial to allege an
alternative factual basis for a violation of a criminal statute, a factual
basis that was not included in the original indictment, violates due
process because the amendment deprives the defendant of notice and
opportunity to prepare a defense to the amended charge. 471 U.S. at
138-40. This is true even if the label for the offense, that is, the
charging statute, remains the same. See Stirone, 361 U.S. at 213-14,
218-19 (original indictment alleged violation of Hobbs Act and
amendment alleged an alternative factual basis for violating the Hobbs
Act). Thus, where the particularized facts are changed so significantly
as to allege a new offense, due process requires new written notice and
the opportunity to prepare a defense. See United States v. Ballard, 322
U.S. 78, 90 (1944) (“An indictment is amended when it is so altered as
to charge a different offense from that found by the grand jury.”)
Admittedly, not all amendments to the underlying facts of an
allegation would trigger due process requirements of prior written
notice and the opportunity to prepare a defense. Amendments that do

31

not materially alter the factual basis for the offense do not raise due
process concerns. See Russell, 369 U.S. at 770 (noting that
amendments that are a matter of form may be made without
resubmission to the grand jury.)
For instance, in the underlying case, had the amendment
changed pipe to caulking gun, the amendment would have been an
appropriate correction based on Mr. Salisbury’s testimony that the
object that D.W. threw at him in the La Viva Market parking lot,
which looked like a pipe, was, in fact, a caulking gun. See 1 RT 160-61.
With that correction, the assault with a deadly weapon count that was
based on the incident that unfolded in the La Viva Market parking lot
would have remained unchanged. And consistent with the notion of
fundamental fairness, such a technical change would not have resulted
in D.W. being misled by the original petition into preparing a defense
based on the circumstances that unfolded in the La Viva Market
parking lot. See Russell, 369 U.S. at 770 (“Convictions are no longer
reversed because of minor and technical deficiencies which did not
prejudice the accused.”).
The amendment in D.W.’s case was neither technical nor
insignificant, however. The substitution of a two-by-four with a nail
for “a pipe” when each weapon was tied to discrete altercations in
different locations, switched one factual basis for an assault with a

32

deadly weapon offense for another. It was a different offense. And had
the amendment been subject to the Fifth Amendment grand jury
requirement, the prosecution would have had to resubmit the
indictment to the grand jury for amendment and D.W. would have
received adequate notice and the opportunity to prepare a defense to
the amended allegation. See Miller, 471 U.S. at 134-35, 138 n.5. D.W.
and minors like him deserve no less protection in juvenile court
proceedings.
The Court has demonstrated “particular sensitivity to minors’
claims to constitutional protection against deprivations of liberty by
the State.” David Levell W. v. California, 449 U.S. 1043, 1047 (1980)
(Marshall, J., dissenting opinion)(citing In re Gault, 387 U.S. at 27).
In D.W.’s case, the substance of the amendment and the
circumstances under which it was made constituted an unfair surprise.
Gray v. Netherland, 518 U.S. 152, 181–82, (1996) (“A defendant must
be afforded ‘a reasonable opportunity to meet [the charges against him]
by way of defense or explanation.’” (quoting In re Oliver, 333 U.S. 257,
275 (1948))). States should not be permitted to deprive minors of basic
due process protections because the new offense falls under the same
criminal statute instead of a completely different one. See Stirone, 361
U.S. at 214.

33

D.W. requests that the Court grant the writ and determine
whether in juvenile court proceedings the Due Process Clause requires
new written notice and the opportunity to respond if an amendment
changes the particularized facts underlying an allegation to allege an
alternative factual basis for the violation of a criminal statute.
C. Because The Procedural Safeguards In Adult Criminal
Proceedings Would Have Prevented A Late-Stage
Amendment Of The Material Facts Underlying A
Criminal Allegation, The Court Could Look To Those
Safeguards To Determine Whether The Amendment Here
Violated Due Process.
In arriving at its holding in In re Gault, this Court relied on the
research of scholars who examined the juvenile court system and
concluded that the absence of the same due process protections
afforded adults charged with similar offenses, created a substantial
risk of arbitrariness in decisions that has harmed the minors the
juvenile court system intended to help. 387 U.S. at 18. Indeed, “loose
procedures, high-handed methods and crowded court calendars, either
singly or in combination, all too often, have resulted in depriving some
juveniles of fundamental rights that have resulted in a denial of due
process.” Id. at 19.
Although the Court has stated that a minor’s right to due
process “is virtually coextensive with an adult’s,” id. at 27, in D.W.’s
case that was not so. Had the procedural safeguards that apply to

34

adult criminal proceedings in California applied to D.W.’s proceeding,
the surprise late-stage amendment to allege a different factual basis
for the assault with a deadly weapon offense in Count Three would
have been precluded. See People v. West, 477 P.2d 409, 419 (Cal. 1970)
(“When a defendant pleads not guilty, the court lacks jurisdiction to
convict him of an offense that is neither charged nor necessarily
included in the alleged crime. This reasoning rests upon a
constitutional basis: Due process of law requires that an accused be
advised of the charges against him in order that he may have a
reasonable opportunity to prepare and present his defense and not be
taken by surprise by evidence offered at his trial.” (internal citations
and quotations omitted)).
For instance, a preliminary hearing would have made clear
which specific set of facts the prosecutor was alleging formed the basis
for the assault with a deadly weapon offense in Count Three: the
incident in the La Viva Market parking lot that involved a “pipe,” the
incident that involved the “two-by-four with a nail,” or both. Following
the preliminary hearing, the prosecutor may amend the charging
document to include any offenses that are based on the evidence
adduced at the preliminary hearing. Cal. Penal Code § 1009. (West
2020). But the prosecutor would have to make the basis for the charge

35

known, giving the adult defendant notice of the factual basis for the
offense long before trial.
In California, juvenile proceedings do not have preliminary
hearings. In re Korry K., 175 Cal. Rptr. 91, 93 (Ct. App. 1981). There
is a detention hearing, where the juvenile court determines whether
the petition pled a prima facie case. Cal. Welf. & Instit. Code § 635
(West 2016). But it is not the same as a preliminary hearing. “A
juvenile detention hearing (section 635) or rehearing (section 637) is
not the equivalent of an adult preliminary hearing and the minor has
no right to prove an affirmative defense for the sole purpose of having
the charges against him dismissed the issue being detention, not
guilt.” In re Korry K., 175 Cal. Rptr. at 93. Even if it were the same, in
this case, the detention report the juvenile court used to find a prima
facie case had been made on all five counts unambiguously alleged that
the deadly weapon that served as the basis for Count Three in the
original petition was a pipe, not a two-by-four with a nail. CT 12-13.
Although a prosecutor may amend an indictment or information
“for defect or insufficiency, at any stage of the proceedings,”
amendments that change the offense charged or charge an offense not
shown by the evidence taken at the preliminary hearing are
prohibited. Cal. Penal Code § 1009. Further, even if the evidence
adduced at the preliminary hearing could support the amendment,

36

where prejudice to the defendant is shown, the matter must be
postponed as required in the interests of justice. People v. Goolsby, 363
P.3d 623, 627 (Cal. 2015) (citing Cal. Penal Code § 1009).
In this case, D.W. was prejudiced by the fact that he prepared a
defense that relied on direct exculpatory evidence in response to a
specific allegation that he assaulted Mr. Salisbury with a “pipe.” 2 RT
419-21. The pipe was tied to a specific incident in the La Viva Market
parking lot. The fact that his defense would have to be substantially
modified to respond to an allegation that he assaulted Mr. Salisbury
using a two-by-four with a nail in a later incident that occurred in a
different location indicates that the amendment prejudiced his right to
prepare a defense to the allegation against him. See e.g., People v.
Burnett, 83 Cal.Rptr.2d 629, 646, 650 (Cal. Ct. App.1999) (reversing
conviction for felon in possession of firearm because the defendant had
not received notice before trial that the prosecutor intended to argue as
an alternative factual basis for the offense his possession of a different
gun earlier in the day in a different incident than the incident that was
the subject of the preliminary hearing).
“Children, too, have a core liberty interest in remaining free
from institutional confinement. In this respect, a child’s constitutional
freedom from bodily restraint is no narrower than an adult’s.” Reno v.
Flores, 507 U.S. 292, 316 (1993) (internal citations and quotations

37

omitted). Under California law, there is no question that in an adult
criminal proceeding, had a trial court, after the matter was submitted
to the fact-finder, amended a complaint to allege a different factual
basis for an assault with a deadly weapon count, due process would
have required the court to postpone the proceedings and provide an
opportunity for the defendant to meet the amended allegation. See
Goolsby, 363 P.3d at 627. The circumstances D.W. faced are even more
egregious because he suffered the adult consequences of having two
strike offenses sustained against him under California’s three-strikes
law without the same due process protections his adult counterparts
would have been afforded. See Cal. Penal Code § 667 (d)(3). The Due
Process Clause does not tolerate such disparate treatment, especially
when the consequences for minors can be so severe. “Due process of
law is the primary and indispensable foundation of individual
freedom.” In re Gault, 387 U.S. at 20. “Neither man nor child can be
allowed to stand condemned by methods which flout constitutional
requirements of due process of law.” In re Gault, 387 U.S. at 13
(quoting Haley v. Ohio 332 U.S. 596, 601 (1948) (Douglas, J., plurality
opinion).

38

CONCLUSION
D.W. requests that the Court grant the petition for a writ of
certiorari.

Respectfully submitted,
Date: September 14, 2020

GIBSON APPELLATE LAW
/s/ Jennifer A. Gibson
By:
JENNIFER A. GIBSON
U.S. SCT BAR NO. 281877
GIBSON APPELLATE LAW
8698 ELK GROVE BLVD
SUITE 1-211
ELK GROVE, CA 95624
Phone: (916) 714-6675
Mobile: (916) 207-5931
Email: Jen.gibson@comcast.net
Counsel for Petitioner D.W., a
Minor

39

CERTIFICATION
I certify, pursuant to Rule 33(g)(i), Rule 8.204, subdivision (c),
that the attached Petition for a Writ of Certiorari contains 8,469
words, including footnotes and excluding tables, as measured by the
word count of the computer program used to prepare this brief.

Dated: September 14, 2020

/s/ Jennifer A. Gibson
By:
JENNIFER A. GIBSON
U.S. SCT BAR NO. 281877
GIBSON APPELLATE LAW
8698 ELK GROVE BLVD
SUITE 1-211
ELK GROVE, CA 95624
Phone: (916) 714-6675
Mobile: (916) 207-5931
Email: Jen.gibson@comcast.net
Counsel for Petitioner D.W., a
Minor

40

APPENDIX

ATTACHMENT A
Transcript of the Juvenile Court’s Ruling
ATTACHMENT B
Opinion and Modified Opinion of the California
Court of Appeal for the Third Appellate District
ATTACHMENT C
Supreme Court of California Order Denying
Discretionary Review

41

ATTACHMENT A

418

1

MONDAY, APRIL 3, 2017

2
3

---oOo--In Re the Matter of

Minor, Case No.

4

137775, came on this day before Hon. R. Steven Lapham, Judge of

5

the Superior Court of California, for the County of Sacramento,

6

Department #93 thereof.

7

The Petitioner was represented by John Grimes, Deputy

8

District Attorney in and for the County of Sacramento, State of

9

California.

10
11

The Minor was present and represented by Juan Corona,
Assistant Public Defender.

12

The following proceedings were then had, to wit:

13

THE PRESENTER:

Item number one, court number 137775, in

14

the matter of

15

the minor is his mother,

16

and two cousins.

17

representing the district attorney's office is Mr. Grimes.

18

THE COURT:

-

Minor is present.

Present with

as well as his aunt

Representing the minor is Mr. Corona.

And

I put this matter over to today to allow the

19

parties to research an issue that I raised on my own motion

20

regarding the allegation in Count Two which alleges that the

21

deadly weapon was a pipe when, in fact, the testimony appeared to

22

be that it was a two-by-four or some other blunt object.

23

Does either party wish to address the Court before I

24

proceed?

25

only concern was whether or not the petition could be amended to

26

conform to the proof at this late stage.

27

petition can be amended at any point in time.

28

I've done my own research.

I'm satisfied that -- my

And it appears that the

But if you disagree, Mr. Corona, I'll allow you to state

SACRAMENTO OFFICIAL REPORTERS

418

419

1
2

your position.
MR. CORONA:

Your Honor, I do disagree, and I would object

3

to any amendment to the petition at this time.

4

Robert G.

5

That is a 1982 case.

I am citing In Re

The citation is 31 Cal.3d 437.

In that case the prosecution sought to amend the Complaint

6

after the close of the case.

7

lesser included offense, a 242, when the original petition had

8

alleged a 245(a)(4) or (a)(1).

9

violation of the respondent's due process rights to amend so late

They sought to amend to add a

The Court found it was a

10

in that stage because due process requires a notice requirement.

11

My objection stands on due process grounds as well.

Not

12

giving us notice as to whether or not we would be fighting a pipe

13

as opposed to a two-by-four with a nail changes the complexity of

14

the case.

15

questions and would have presented my evidence.

16

It changes the way that I would have addressed my

And at this time I would argue that it denies

his

17

due process rights.

18

the Court has read In Re George -- I'm sorry, In Re Robert G.,

19

but I think it is on point, and it does address the Court's

20

specific issue.

21

THE COURT:

And, Your Honor, with that, I don't know if

What if the prosecution had instead of alleging

22

a specific implement like a pipe, what if the prosecution had

23

simply alleged in the petition that the deadly weapon was a blunt

24

object?

25

MR. CORONA:

I think that would have been fine, but at the

26

same time the prosecution argued that the 245(a)(1) with the

27

two-by-four and the nail occurred after the Viva parking lot

28

incident.

Where as in the petition it alleged a 245(a)(1) with a

SACRAMENTO OFFICIAL REPORTERS

419

420

1

pipe, and that pipe I think at the time that the petition was

2

alleged there was reference to the caulking gun.

3

whether or not it was, in fact, a caulking gun or if it was a

4

pipe.

5

two-by-four and the nail occurred after that incident at Viva

6

parking lot then that changes essentially the whole posture of

7

the case.

8
9

It was unknown

So when the prosecution argues that the 245(a)(1) with the

THE COURT:

Have you read In Re Man J., 149 Cal.3d

specifically at 481?

10

MR. CORONA:

11

THE COURT:

I have not.
All right.

I've reviewed the case you cite,

12

the Robert G. case.

13

indicated the charging statute.

14

point.

15

same but the method of commission was altered slightly.

16

trying to recall specifically what those facts were.

17

right.

18

were allegedly damaged by the minor were owned by multiple people

19

rather than a single victim.

20

That's a case that actually changed as you
Man J. seems more directly on

That was a case like ours where the charge remained the

It made a minor change.

I'm

That's

It alleged that the cars that

The point of that case, however, was that the essential

21

charge remained the same, and there was no prejudice to the minor

22

because the proof would have been the same in any event.

23

me ask you, you think you did suffer prejudice as a result of

24

this?

25

So let

What prejudice do you think you suffered?
MR. CORONA:

Well, I think when the Court refers to the

26

245(a)(1) with the two-by-four and the nail, I think that's more

27

of an amendment to the 245(a)(4) which would be Count Two.

28

245(a)(1) referencing the pipe, the way the evidence was

SACRAMENTO OFFICIAL REPORTERS

The

420

421

1
2

presented was related to the caulking gun.
At the time that I argued the case, I argued self-defense

3

as it relates to the caulking gun, and the district attorney

4

argued that this was an I guess a fluid commission of a robbery

5

up until the point that the perpetrators reached a safe place.

6

At the time that I argued my case and presented my case, I was

7

under the impression that the pipe that they were referring to

8

was the caulking gun.

9

referenced my closing arguments as it relates to a self-defense

10
11

So I referenced my questions, and I

claim in that regard.
When the Court chooses to amend the petition based on the

12

fact that there's another 245(a)(1) occurring later on, that's a

13

completely different case than we had before us.

14

was the allegation as it relates to the continuing conduct

15

related to the crutches, the two-by-four and some other objects.

16

And so at this point to try to fix the prosecution's

The 245(a)(4)

17

mistake I think was not my position.

I'm not here to assist the

18

prosecution in getting a conviction.

So me not addressing those

19

issues was a tactical decision noting that the prosecution had

20

made a failure in its amendment of the Complaint.

21

THE COURT:

22

(Discussion held off the record.)

23

THE COURT:

24
25

Let's go off the record just a second.

Mr. Grimes, do you want to respond to Mr.

Corona's statement first?
MR. GRIMES:

At the outset I would say it's Count Three we

26

were talking about.

27

Count Three.

28

THE COURT:

I think the Court said Count Two, but it's

That's the deadly weapon count?

SACRAMENTO OFFICIAL REPORTERS

421

422

1

MR. GRIMES:

2

THE COURT:

3

MR. GRIMES:

Yes.
All right.
And I would note simply that Count Three as

4

charged on or about January 26th, 2017, it does not mention La

5

Viva parking lot or after La Viva parking lot or before La Viva

6

parking lot.

7

It mentions a date.

It would be the People's request to amend to conform with

8

the proof.

9

Channing S., had more to do with the two-by-four with the nail

The evidence that came in at trial from the victim,

10

than what is alleged.

11

petition as noted in Code of Civil Procedure 469 and 470.

12

think it's more consistent with the testimony.

13

more consistent with the testimony, and it would be our request

14

at this time that the Petitioner be allowed to make that

15

amendment.

16

THE COURT:

So it's not a material variance of the

I'm sorry.

18

Two is the assault with a deadly weapon charge?

I don't have my petition in front of me.

MR. GRIMES:

20

THE COURT:

21

MR. GRIMES:

22
23

The amendment is

So is it your theory that Count Two referred --

17

19

I

So Count

245(a)(4).
That's Count Two?
Correct.

And Count Three is the 245(a)(1), to

wit, a pipe.
THE COURT:

Is it your position that the theory of the

24

prosecution's case is that the 245(a)(4) relates to the incident

25

at Harris and Balsam?

26
27
28

MR. GRIMES:

It would include that.

I think there were

several examples of a 245(a)(4) throughout the incident.
THE COURT:

And then is it your position that the 245(a)(1)

SACRAMENTO OFFICIAL REPORTERS

422

423

1

relates to the Viva parking lot or the incident at Harris and

2

Balsam or both?

3

MR. GRIMES:

It would be -- well, the two -- the

4

two-by-four was -- the victim was specific that the two-by-four

5

happened after he left the parking lot.

6

THE COURT:

Well, in other words, Mr. Corona is saying that

7

he thought that the 245(a)(1) referred to the Viva parking lot

8

incident because it alleged that a pipe was used, and he's saying

9

that the object, whatever it was, that was taken from the pickup

10

truck, he was assuming that was the pipe or a caulking gun.

11

follow his argument?

12

MR. GRIMES:

13

THE COURT:

14
15

You

Correct.
So how is he not prejudiced if that was the

assumption that he was making?
MR. GRIMES:

Well, one, we didn't allege caulking gun.

I

16

don't think that Count Three is limited to that event.

17

our position what I argued throughout was that this was a fluid

18

attack that started at the Dollar General and continued all the

19

way until the law enforcement arrived sometime later.

And that

20

there are multiple assaults that happened throughout.

We chose

21

to charge the ones that are on the petition, and I think the way

22

that the evidence came in, it came in based on the victim's

23

testimony that it was a two-by-four with a nail.

24

request to amend the petition to conform with that proof.

25

THE COURT:

It's been

And that's our

I confess that throughout this trial I thought

26

that the 245(a)(1) referred to the final incident at Harris and

27

Balsam and only that incident.

28

could have been relating to the incident in the Viva parking lot

I wasn't considering that it

SACRAMENTO OFFICIAL REPORTERS

423

424

1
2
3
4

with the object being thrown at the victim.
MR. GRIMES:

Even how it was arrested to the Court, I never

argued that whatever was thrown at him was a 245(a)(1).
MR. CORONA:

And, Your Honor, that is precisely why the

5

specificity of the charge and the object is crucial to the

6

petition.

7

misleading or if it's not consistent, then my client is

8

prejudiced by that lack of notice.

9

If the specificity is not accurate or if it's

THE COURT:

All right.

10

MR. GRIMES:

Submit it.

11

MR. CORONA:

Submit it.

12

THE COURT:

All right.

Is matter submitted?

It bears repeating that it was the

13

Court that brought this to everyone's attention, and I looked

14

back at my notes just now from closing argument, and I don't see

15

any reference to this issue by either side as to whether we were

16

talking about the Viva market incident or the attack at Harris

17

and Balsam.

18

defense under those circumstances or to understand how the

19

defense would have conducted things any differently had this

20

issue come up.

21

It's difficult for me to find any prejudice to the

The fact is at the end of the day, the charge is the same,

22

the 245(a)(1).

23

deadly weapon was used either at the Viva parking lot or at

24

Harris and Balsam.

25

concession that the prosecution could have charged it more

26

vaguely as simply some type of blunt object, I fail to see how

27

there's any prejudice to the defense.

28

the Court's own motion and proceed to the verdict.

The defense could easily have argued that no

I don't see how -- especially in light of the

So, basically, I'll deny

SACRAMENTO OFFICIAL REPORTERS

424

425

1
2

MR. GRIMES:

Is the Court then allowing the People at this

time to amend Count Three?

3

THE COURT:

4

MR. GRIMES:

Yes.
It would be the Petitioner's request to amend

5

by interlineation where it read, to wit, a pipe, replace a pipe

6

with a two-by-four with a nail.

7

MR. CORONA:

And, Your Honor, the defense objects at this

8

time under due process rights under the California and U.S.

9

Constitution.

10

THE COURT:

And for the reasons I've stated relying on Man

11

G. -- I'm sorry, yes, Man J., I think the juvenile court has

12

discretion to permit amendment of juvenile court wardship

13

petitions to correct or make more specific the factual

14

allegations supported of the offense charged when the very nature

15

of the charge remains unchanged.

16

quote from Man J. at 149 Cal.App.3d 481.

17

the proposed amendment, I think that can be made at any point in

18

the proceedings.

19

And that's actually a direct
And for the purpose of

So, Mr. Corona, your objection is noted, but it's

20

overruled.

21

verdict?

Anything further we need to do before I address the

22

MR. GRIMES:

No.

23

MR. CORONA:

No.

24

THE COURT:

All right.

I want to make a few comments about

25

the principal witness, Channing Salisbury, before I announce my

26

verdict.

27

inconsistent and inconsistent with prior accounts that he gave to

28

the police.

First, his testimony at times was confusing, internally

I do not conclude that he was lying but rather that

SACRAMENTO OFFICIAL REPORTERS

425

426

1
2

he was an unreliable reporter of the facts.
My observations of him during his testimony led me to the

3

conclusion that he must be laboring under some type of mental

4

disability.

5

was developed about his personal background but certain things

6

popped out during his testimony.

7

He is 37 years old.

A few examples drew me to this conclusion.

8

poorer section of town.

9

was a bicycle.

Not much

Living at the time of the offense in a

And his primary mode of transportation

His current employment is at a flea market

10

repairing electrical equipment.

11

string of criminal convictions for theft and weapons offenses,

12

most recently a burglary conviction in 2014.

13

claimed to be a restauranteur who was responsible for opening the

14

Elephant Bar and Mikuni, two prominent restaurants in Sacramento.

15

He also claimed to be a sushi chef who had been hired by Mikuni

16

and also a person who did private dinners in people's homes.

17

be sure I have no facts to suggest that these claims are false.

18

But his resume what we know of it makes those claims in my view

19

quite questionable.

20

also gives me pause.

21

We also know that he has a

Nevertheless, he

To

His testimony regarding the crime itself

I want to discuss the 911 call first.

And parenthetically

22

I say call singular because there's less than a one minute gap

23

between the first and second 911 call, and it may, in fact, be

24

the same call, just a handoff from CHP.

25

that call Salisbury said he needed an ambulance even though his

26

sole injury at that point in time appeared to be relatively

27

minor, an abrasion to his upper lip.

28

individuals had lots of weapons, including bats and, quote,

But in any event, in

He also said that the

SACRAMENTO OFFICIAL REPORTERS

426

427

1

they're trying to hit me with bats, unquote.

2

There's no evidence that the group had bats or at that

3

point in time they had any weapons at all other than the object

4

that the minor took from the pickup truck which Salisbury

5

described as a caulking gun.

6

There's also a point in the 911 call where he seems to be

7

asking the 911 dispatcher whether she can see a person hiding

8

behind a trash can.

9

has a questionable relationship with reality, and the light rail

It appears to me that Mr. Salisbury at times

10

incident that the defense raised in their portion of the case

11

only reinforced that conclusion in my own mind.

12

So with those observations, I turn to the individual

13

counts.

14

that has not been proved beyond a reasonable doubt.

15

evidently happened at the Dollar Store as evidenced by the wound

16

on Salisbury's upper lip which according to Officer Marin as

17

reported to her by security guard Hinton was evident by the time

18

that Salisbury got to the Viva market.

19

But Salisbury was all over the map on that.

20

With respect to Count One, the robbery charge, I find
Something

Was it robbery?

Perhaps.

He testified that -- he testified at trial that $1 was

21

taken but previously told officers that $19 had been taken in

22

specific denominations.

23

said he started with a twenty dollar bill and bought two beers

24

that morning.

25

There's been no testimony that any money was recovered from any

26

of the juveniles that day.

27

the Dollar Store seems inconsistent with Salisbury's robbery

28

claim.

But even that doesn't add up because he

There's no video or eyewitness to the incident.

The conduct of the juveniles after

SACRAMENTO OFFICIAL REPORTERS

427

428

1

When security guard Hinton called them to return, called

2

the individuals, the group of teenagers to return, the video

3

shows that they readily complied.

4

Salisbury, Hinton called them to return a second time just as

5

they were about to leave the property of the Viva market.

6

again they readily complied with his request.

7

After briefly talking to

Once

Salisbury's own conduct seems inconsistent with the robbery

8

claim.

9

from the vicinity of Harris and Balsam streets just after he left

The 911 call was made according to Salisbury's testimony

10

the Viva market parking lot.

11

clock on camera 30 which is part of exhibit 29B shows that he

12

left the Viva market parking lot at approximately 1:15.

13

first 911 call commenced a full 12 minutes later which is 12

14

minutes that I really can't account for, but the bottom line is

15

that although Salisbury testified that immediately after the

16

alleged robbery at the Dollar General, he tried to flag down law

17

enforcement officers and started calling 911 claiming that some

18

of those calls were dropped.

19

However, camera 30 -- the time

The

The evidence shows that he actually didn't call 911 until

20

nearly one half hour after the incident at Dollar General.

I

21

just find that's inconsistent with Salisbury's claim that he had

22

been robbed.

23

We then turn to the attack on Harris and Balsam.

Again,

24

Salisbury testified very inconsistently and, again, I'm still

25

talking about Count One now, at the end of the day it is

26

impossible to determine what, if anything, Salisbury claimed was

27

actually stolen.

28

everything from a tablet which is not further identified, to a

He testified about a backpack that contained

SACRAMENTO OFFICIAL REPORTERS

428

429

1

soldering iron, to sushi knives.

2

testimony it was my impression that he was simply speculating on

3

what may have been in his backpack on that particular day.

4

does the evidence support a finding that there was an intent to

5

obtain the contents of the backpack or to permanently deprive

6

Salisbury of those contents.

During a good portion of this

Nor

7

Again, Salisbury testified very inconsistently, but at one

8

point he claimed one of his assailants threw the contents of the

9

backpack at him.

In another part of his testimony, he claimed

10

that one of the assailants tossed the tablet on the ground.

11

either of these statements can be believed, they seem

12

inconsistent with an intent to steal the contents of the

13

backpack.

14

been proved beyond a reasonable doubt, so I do not sustain the

15

petition on that count.

16

If

For all of those reasons, I find Count One has not

I cannot say the same for the remaining counts.

However

17

unreliable I might think that Salisbury's testimony was, clearly

18

he suffered a severe beating as evidenced by his physical

19

injuries.

20

witness to that beating by the virtue of it being captured by the

21

911 call.

22
23

Moreover, he was -- we are all essentially an ear

Immediately following that attack, Salisbury identified
as his attacker, and he reiterated that

24

identification during the juris hearing.

25

corroboration for that identification.

26

There's also

There's no question that

was one of the group of five teenagers that Salisbury was

27

following that day.

28

is the most aggressive.

And further of those five teenagers,
In the confrontation in the Viva parking

SACRAMENTO OFFICIAL REPORTERS

429

430

1

lot, he is the one who retrieves an object from the pickup truck

2

among the three individuals who advanced on Salisbury,

3

in the lead, and it is

4

Salisbury.

5

is

who throws the object at

also had a motive to attack Salisbury.

He was

6

clearly irked by the fact that Salisbury continued to follow the

7

group and the attack occurred a very short time after their last

8

encounter at the Viva market parking lot leaving little time for

9

an unknown third party to enter the picture.

10

There are no facts which support self-defense.

Even if for

11

the sake of argument

12

followed, there's no justification for committing a battery under

13

such circumstances.

14

been proved beyond a reasonable doubt, and I sustain the petition

15

on those counts both as felonies.

16

felt justified in his anger of being

So I find that Counts Two and Three have

I also find that Counts Four and Five have been proved

17

beyond a reasonable doubt.

18

clear and largely uncontested, and I sustain the petition on

19

those counts as misdemeanors.

20

The evidence on those counts was

So with respect to the counts that I have sustained, I find

21

that notice has been given as required by law.

22

date and county of residence of the minor are correct as stated

23

on the petition.

24

Two through Five have been proved beyond a reasonable doubt.

25

Mr. Corona, is it your desire to go to immediate

26

That the birth

And as I've said that the allegations in Counts

sentencing?

27

MR. CORONA:

28

THE COURT:

Yes.
Do you wish to address the Court before we do

SACRAMENTO OFFICIAL REPORTERS

430

431

1
2

that?
MR. CORONA:

Yes, Your Honor.

Your Honor, given that the

3

Court has not sustained Count One which was the principal offense

4

charged in this petition and the principal reason why

5

remains in custody, I would ask that he be given time served.

6

has been in custody since he's been arrested which by my

7

calculation is 67 days in the juvenile hall.

8

any remaining time that the Court chooses to impose that he serve

9

on home supervision or electronic monitoring.

10

He is 17 years old.

He

I would ask that

Although he was not attending school

11

at the time, he was working with his mother washing dishes to

12

help support the family.

13

where he has support not only from his mother but his aunt who's

14

currently present.

15

for the remainder of the sentence.

16

THE COURT:

He comes from a stable environment

I would ask at this time that he be released

And your reason for saying that Count One is

17

the principal offense is simply that carries the longest

18

sentence?

19

MR. CORONA:

Not only that but that was one of the reasons

20

why probation had recommended 120 days in juvenile hall.

21

last probation report that we got was from February when we came

22

for the first settlement conference, and in that report probation

23

had recommended 120 days assuming that all the charges in the

24

petition were true.

25

as a principal charge, but it carries the most severe consequence

26

out of all of them, I would ask that a lesser sentence than

27

probation recommended be imposed.

28

THE COURT:

The

Given that one of the charges I refer to it

All right.

And how much credit does

SACRAMENTO OFFICIAL REPORTERS

431

432

1

have at this point?

2

THE PRESENTER:

3

THE COURT:

4

MR. GRIMES:

67 days, Your Honor.

Mr. Grimes?
Your Honor, it's our position that 120 days is

5

appropriate.

6

60 days E.M., 10 days juvenile work project.

7

follow that offer.

8
9

The original offer we made was wardship, 120 days.

MR. CORONA:

We'd ask the Court

Your Honor, the offer on that was on Count

One, violation of Penal Code Section 211.

10

THE COURT:

The recommendation is for early furlough so

11

even if I were to impose 120 days, he would be eligible for

12

furlough now or not?

13

hall?

14
15

THE PRESENTER:

What's his performance been like in the

I can look that up, Your Honor.

Honor, there's minor infractions.

16

THE COURT:

17

THE MINOR:

No.

18

THE COURT:

All right.

Your

Nothing serious.

anything you want to say?

I read and considered the

19

dispositional memorandum dated February 3rd, 2017.

20

disposition is as follows:

21

preliminarily.

22

virtue of the fact that carries the longest maximum, the real

23

crime here in my view is the beating that Mr. Salisbury took at

24

Harris and Balsam street.

25

assuming that a robbery did occur, it was a relatively benign

26

robbery, if I can say it that way, in comparison to the beating

27

that Mr. Salisbury took at Harris and Balsam.

28

And

Although -- I'll just say this

Although Count One is the primary offense by

Even putting the best face on it and

That said, I think

has served a sufficient amount of time in custody for

SACRAMENTO OFFICIAL REPORTERS

432

433

1
2

that offense.
So it's my intention to order him to serve 67 days on that.

3

If I were to order 120 and if he were to be released on early

4

furlough, the additional time would be served on electronic

5

monitoring.

6

monitoring anyway as recommended by probation.

7

the need for any more.

8

credit I assume?

9

I intend to impose a good amount of electronic

THE PRESENTER:

10

THE COURT:

11

THE PRESENTER:

12

THE COURT:

So I don't see

He doesn't have any electronic monitoring

No, Your Honor.

He's been in the hall the whole time?
Correct.

So disposition is as follows:

13

is adjudged a ward of the Juvenile Court of Sacramento County.

14

He's committed to juvenile hall to serve 67 days with credit for

15

the 67 days he's already served.

16
17
18
19

Upon completion of the juvenile hall commitment, the minor
is committed to the care and custody of his mother, Joallen
under the supervision of the probation officer.
I'll impose 60 days of electronic monitoring as recommended

20

in special condition one.

21

as recommended in condition number two.

22
23
24

And 10 days of juvenile work project

Mr. Corona, did you want to address any of the other
conditions?
MR. CORONA:

I did, Your Honor.

I noted that probation

25

recommended three separate curricula as part of his probation.

26

think at this time that would be a little excessive and

27

redundant.

28

maybe perhaps is the aggression and relationships.

I

I would ask it to be limited to the biggest need

SACRAMENTO OFFICIAL REPORTERS

And just that

433

434

1
2

as it relates to juvenile work project, I would just submit.
And sorry, Your Honor.

I did notice there's a no

3

association with

4

They are friends.

5

they live near each other, and they do hang out with each other

6

that they do not associate.

7

impose that specific condition.

8

probation report.

9

MR. GRIMES:

Where's the counseling listed?

10

MR. CORONA:

It's on page 10.

11

THE COURT:

12

MR. GRIMES:

Feka.

I think that's Mr. Faalogoifo.

I think it would be unrealistic considering

I would ask that the Court not
That's on page nine of the

Mr. Grimes?
Your Honor, I would ask that the counseling

13

that is listed on page 10 at item eight be imposed in full.

14

think that it's all warranted given the behavior that

15

demonstrated in this case.

16

I
has

I think also the gang component that's issued there in 8B

17

is warranted in light of the fact that the social studies report

18

has him listed as a Del Paso Heights Blood associate there on

19

page three towards the bottom.

20

I would also ask that the no association order with the

21

co-minor be imposed.

22

with pack mentally that day with the victim, and they should not

23

be allowed to associate together.

24

Court to impose nonassociation orders with the other minors that

25

were identified by Officer Eagleton in his testimony.

26

MR. CORONA:

I think that these young men were acting

And I would actually ask the

If I may address the issue of the gang

27

curricula and the association with Del Paso Heights.

28

it's common practice with probation to ask detainees whether or

SACRAMENTO OFFICIAL REPORTERS

I think

434

435

1

not he associates in a general sense with certain members of

2

certain gangs.

3

will naturally associate someone with certain type of gang.

4

Association is not an admission of being a gang member.

5

don't think that gang member curricula at this time is warranted

6

given that he's not been classified as a Norteno or Del Paso

7

Heights or any kind of gang member.

8

principally to separate him from other members who might not look

9

at him too kindly for the fact that he resides in a specific

10
11

Living in a certain areas of Sacramento County

And I

I think that is there

area.
THE COURT:

Well, he did admit that he associates with Del

12

Paso Heights Bloods, and I think that's sufficient for me to

13

order gang counseling.

14

as well.

15

are quite high in both attitudes and behavior and aggression.

16

I think that counseling is warranted as well.

17

And I think that's in his best interest

I'm also looking at the PACT scores.

His PACT scores

Ma'am, you've had your hand up for a while.

18

something you want to say?

19

MINOR'S AUNT:

Yes.

So

Is there

If he was saying something about them

20

not associating with each other, they go to the same school and

21

the other kids live across the street from me.

22

the neighborhood.

23

in trouble?

24

partial -- I don't understand.

25

So they can't go to school together or they're

They are friends.

THE COURT:

We all live in

They're just being gang in

Tell me what your feeling is about the friend

26

that we're talking about.

27

MINOR'S AUNT:

28

THE COURT:

You're talking about the kids that was -, for instance.

SACRAMENTO OFFICIAL REPORTERS

435

436

1
2

MINOR'S AUNT:
and they're friends.

3
4

Him and

Like brothers.

MINOR'S MOTHER:
arrested.

, they go to school together,

Other kids that were with him didn't get

They live right across the street.

5

THE COURT:

6

MINOR'S MOTHER:

7

MINOR'S AUNT:

Do you consider them good influences?
No, not good influences.

They all hang out together.

They're kids.
If he step out

8

the door, he'll get in trouble for talking to them?

9

away from them.

10
11

THE COURT:

He said stay

They're right there.
If I order it, that's going to be his

obligation.

12

MINOR'S AUNT:

That's right.

You're right about that.

But

13

I'm just asking why when you say that we all live in this little

14

community.

15

be walking home from school together, and then the police pull up

16

and say you violated because they go to the same direction.

17
18

I'm not saying that it's wrong, but how could you not

THE COURT:
one another.

Well, they'll have to walk at a distance from

That's what nonassociation means.

19

MINOR'S AUNT:

20

THE COURT:

I understand.

My question to you is do you think -- what do

21

you think about those individuals that live across the street

22

from you?

23

What do you think?

MINOR'S AUNT:

24

too much about them.

25

things.

26
27
28

They just moved there.

I really don't know

But I'm finding out, you know, different

I don't know too much about them.

THE COURT:

What kind of different things are you finding

out?
MINOR'S AUNT:

I mean they're in and out.

SACRAMENTO OFFICIAL REPORTERS

They come.

They

436

437

1

go.

2

don't know them that well.

3

and

They hang with the kids, and they're in the neighborhood.

I

But I know they're my neighbors now,

you know, talks to them.

4

THE COURT:

Well, part of the reason for ordering that

5

someone not associate with someone else is to avoid them getting

6

into more trouble.

7

MINOR'S AUNT:

8

THE COURT:

9

MINOR'S AUNT:

10

THE COURT:

You're right.

It would be for

protection.

You're right.

And the question is do you think that's

11

necessary?

12

is hanging out with?

13

Exactly.

Are you worried about the kind of kids that

MINOR'S AUNT:

Yeah.

Yes, I am.

And that's why he was in

14

there.

15

those in the video, I don't see them getting charged, and they

16

there just as much as he was.

17

at him because he was swinging a belt at him.

18

him or any one of them.

19

it.

20

only one getting charged and getting a felony or whatever.

21
22

Now, the people that were with him, all those -- all

THE COURT:
attacker.

24

THE COURT:

25

of the nonassociation?

28

just said oh, no, and that's

Well, he is the one who was identified as the

MINOR'S AUNT:

27

But

He could have hit

The kids -- I don't know what was going on, but he's the

23

26

Just because he threw that thing

MR. CORONA:
consider

I understand.

Either party want to further address the issue

I would just submit and ask the Court to
aunt's comments on the issue.

THE COURT:

Well, I will order the nonassociation as to

SACRAMENTO OFFICIAL REPORTERS

437

438

1

.

Probation isn't recommending nonassociation with either

2

of the other individuals.

3

somewhere.

4

And I have those names in my notes

But, Mr. Grimes, are you pursuing that?

MR. GRIMES:

It would be our request that the order be

5

imposed.

6

equally culpable certainly for certain crimes.

7

extent that

8

at the video in this case, I tend to agree they are culpable

9

which is why I think the nonassociation order is appropriate.

10

I agree with the family that those individuals are

is.

THE COURT:

Maybe not to the

But when I look at the video and I look

Well, interestingly, the video shows that when

11

a group was advancing on Mr. Salisbury, and I'm talking about the

12

incident that caused him to remove his belt and start swinging it

13

over his head,

14

that.

15

And that's the only evidence I have except of any misconduct by

remained back and didn't participate in

It was

and the two other individuals who advanced.

16

except for Salisbury's testimony that's uncorroborated

17

regarding the general dollar -- the Dollar General incident.

18

MR. GRIMES:

19

THE COURT:

I would submit it, Your Honor.
Well, I'll order the no contact as to

20

the reason that he has his own sustained petition, but I won't

21

order nonassociation with any of the other juveniles who were

22

involved that day.

for

23

So,

what that means is you're to have no

24

association with

25

going to have to keep a separation there.

26

front of him or behind him but clear enough distance so nobody

27

can say that you're associating with him and that means also no

28

electronic communication, text messages, social media, phone

-

.

If you're walking to school, you're

SACRAMENTO OFFICIAL REPORTERS

You'll have to walk in

438

439

1

calls, anything of that sort.

2

THE MINOR:

All right.

3

THE COURT:

Did you have a question about that?

4

THE MINOR:

Yeah.

5
6

About the school.

How would I do like

that if we're on campus?
THE COURT:

So at school unless you have a class together,

7

you're going to have to do the same thing.

8

have no contact.

9

say I can't be seen with you.

Steer clear so you

If he comes up to you, you're going to have to
You have to let him know that he

10

just can't do that.

11

association with him but only with reference to school work.

12

that clear?

Now if it's in class, you can have

13

THE MINOR:

Yeah.

14

THE COURT:

Okay.

Is

I will impose as I said before all three

15

forms of counseling, the aggression and relationships, the gang

16

and the attitudes and behavior.

17

PACT scores, and I think would be beneficial to

18

I'll reduce the restitution fine to $250 based on the

19

counts that were sustained.

20

restitution hearing.

21

MR. CORONA:

Yes.

22

MR. GRIMES:

Yes.

23

THE CLERK:

24

Those are all justified by the

And I assume we need to set a

Restitution report will be due May 18th with a

hearing of June 2nd at 8:30 in Department 97.

25

THE COURT:

26

MR. CORONA:

27

THE COURT:

June 2nd for the hearing.

28

THE CLERK:

The report will be due May 18th.

All right.

That will be the order.

What were those dates again?

SACRAMENTO OFFICIAL REPORTERS

439

440

1
2

THE COURT:
probation.

And I'll impose all general conditions of

Anything further we need to do today?

3

MR. CORONA:

I don't think so, Your Honor.

4

MR. GRIMES:

No, Your Honor.

5

THE COURT:

All right.

Hold on just a second.

6

you have the right to appeal from my judgment.

7

disagree with any part of my judgment, you can appeal to a higher

8

court.

9

of appeal.

So if you

If you want to appeal, you have to file a written notice
That has to be done within 60 days of today date.

In

10

that appeal you must tell the Court exactly what it is you're

11

appealing, whether you are appealing from my entire judgment or

12

from some portion of it.

13

understand your appeal rights as I've described them to you?

And your notice must be signed.

14

THE MINOR:

Yeah.

15

THE COURT:

Do you have any questions?

16

THE MINOR:

No.

17

THE COURT:

All right.

18

THE PRESENTER:

19
20
21

All right.

Do you

Good luck.

Your Honor, do you want him hooked up prior

to release?
THE COURT:

If possible, yes.
(Proceedings concluded.)

22
23
24
25
26
27
28

SACRAMENTO OFFICIAL REPORTERS

440

ATTACHMENT B

Court of Appeal, Third Appellate District
Andrea K. Wallin-Rohmann, Clerk
Electronically FILED on 1/17/2020 by R. Cervantes, Deputy Clerk

NOT --TO --BE ---------PUBLISHED
---California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
----

In re D.W., a Person Coming Under the Juvenile
Court Law.
THE PEOPLE,

C084673
(Super. Ct. No. JV137775)

Plaintiff and Respondent,
v.
D.W.,
Defendant and Appellant.

The minor, D.W., appeals the juvenile court order sustaining allegations of two
counts of assault with a deadly weapon. He contends: (1) the juvenile court denied him
due process by failing to consider his claim of self-defense; (2) there is insufficient
evidence he did not act in self-defense; and (3) amendment of the charging document
after the matter was submitted deprived him of due process. We affirm the order.

1

I. BACKGROUND
C.S. was walking near a general store on his way to a nearby liquor store. A group
of “teens,” including the minor, surrounded C.S. and asked him to buy them a “blunt
wrap.” Instead, he gave them a dollar. One of the teenagers hit C.S. in the mouth and
took his money. The minor was not the person who punched him. C.S. followed the
group from the market and tried to call 911.
C.S. followed the group to the parking lot of a supermarket. He testified they
turned toward him and attacked him, grabbed tools out the back of a nearby truck, and
threw the tools at him. Those items included a caulking gun, boards, and crutches. The
minor threw several items at him, including the caulking gun, which grazed C.S.’s elbow.
Surveillance footage showed the minor take an item from the back of a truck and throw it
at C.S. The footage did not show other items being removed from the truck. After the
minor threw the caulking gun, C.S. took his belt off and began swinging it in circles over
his head in order to “deter” the group.
A security guard working at the supermarket saw C.S. swinging a belt, and a
group of teenagers. They were all yelling back and forth at each other. When the guard
yelled out, the group of teenagers started to leave, and C.S. remained. C.S. received a
call from the 911 dispatcher. C.S. told the guard the group had “tried to rob” him. The
guard called the teenagers back. When they returned, one of them showed the guard a
bleeding cut on his forearm and another told the guard that C.S. was following them and
acting weird. The guard did not recall the teenager with the cut say that C.S. had cut him,
but he believed C.S. had assaulted him and was prepared to detain C.S. The group did
not claim C.S. had a knife and declined to report the incident to the police. C.S. told the
guard the group had attacked him and tried to rob him, and he was following them.
When the group left the supermarket parking lot, C.S. again followed them.
C.S. maintained some distance from the group. In the area of Harris Avenue and
Balsam Street, C.S.’s phone connected with 911 and he told the dispatcher, “I got
2

robbed.” During the call, C.S. repeatedly screamed, yelled for help, and sounded
distressed. C.S. told the dispatcher that his attackers used a “[b]ig bat” and then said,
“[T]hey’re trying to hit me with bats.” C.S. told the dispatcher that the group “stole some
shit out of a guy’s truck” and used it to hit him. He also yelled, “Get away bro. Help.
No, no.” According to C.S., during this attack, the minor rushed at him and hit him in the
head with a “two-by-four.” The altercation ended when the minor jumped over a fence,
fell on his face, and ran away. According to C.S., he suffered several injuries as a result
of the altercation.
When Officer David Burnett arrived at the scene, he found C.S. bleeding from his
head, his backpack on the ground, and his possessions strewn on the ground. C.S. had
lacerations on his left temple and upper lip, and his jaw looked as if it was swelling. C.S.
described his assailants. Officer Burnett showed C.S. a photographic lineup, and C.S.
identified the minor as the person who had hit him.
C.S.’s trial testimony and statements had many inconsistencies. C.S. initially
denied “pulling” a knife during the altercation. He later stated he had acted like he had a
weapon, then later admitted he had told Officer David Eagleton he had pulled a knife to
defend himself and lost it during the struggle. At trial, he did not remember pulling out a
knife.
C.S. initially told Officer Burnett that a group of four young men took $19, a cell
phone, and sunglasses from him. He followed them, they threw rocks and bricks at him,
and when they got to the supermarket, one of the young men hit him with a pipe. Burnett
testified that C.S. told him that the incident began when four male teenagers approached
him and asked for a dollar. As he reached into his pocket, one of them punched him.
After he was punched, all four teenagers searched through his pockets and took
approximately $19. They also took a Samsung Galaxy phone.
A few days later, Officer Eagleton interviewed C.S. C.S. told Officer Eagleton
that he followed the teenagers, including the minor, to Harris Avenue—around the corner
3

from the supermarket—where the group attacked him by hitting him with boards, rocks,
and crutches. C.S. specified that the minor was the one who hit him with a two-by-four
with a nail in it. The other teenagers were responsible for hitting him with rocks and
crutches. After Officer Eagleton showed C.S. the surveillance video from the
supermarket, C.S. admitted that he had a knife with him during the confrontation. He
insisted, however, that he did not use it until after they had left the supermarket. And, he
only pulled it out after they left the supermarket because they began hitting him. C.S.
told Officer Eagleton that when the teenagers started hitting him with boards and rocks,
he “brought out his knife and started threatening them with the knife.” None of the items
that C.S. said he was hit with were ever recovered from the scene.
Officer Eagleton recognized the minor from the surveillance video and went to
interview him. During his interview of the minor, Officer Eagleton observed a bruise on
the minor’s left forearm “that appeared to be in a squared off U-shape, almost like a belt
buckle.” The minor resisted efforts to have his arm with the buckle-shaped bruise
photographed. Three officers wrestled the minor to the ground to get him to comply. He
then spit blood on Officer Eagleton’s shoes and the wall in the interview room.
The defense presented evidence of an unrelated incident in 2015 in which C.S.
intimidated passengers on the light-rail train and threatened to beat one passenger who
confronted him. C.S. had a knife and swung it at a transit security guard. C.S. told a
police officer that he was defending himself against an attack.
An original Welfare and Institutions Code section 602 petition charged the minor
with robbery (Pen. Code, § 211—count one),1 assault by means of force likely to produce
great bodily injury (§ 245, subd. (a)(4)—count two), assault with a deadly weapon, a pipe
(§ 245, subd. (a)(1)—count three), misdemeanor battery on a peace officer (§ 243, subd.

1

Undesginated statutory references are to the Penal Code.
4

(b)—count four), and misdemeanor resisting or delaying a peace officer (§ 148, subd.
(a)(1)—count five).
Following a contested jurisdictional hearing, and after the matter was submitted
for decision, the juvenile court raised an issue about whether there was a fatal variance
between the trial testimony and count three as alleged, in that the evidence showed that
C.S. was hit with a two-by-four with a nail, not a pipe. The minor’s counsel objected on
due process grounds. After hearing arguments and reviewing the parties’ closing
arguments, the juvenile court noted it could not find any prejudice to the defense under
the circumstances of this case and could not discern how the defense would have
conducted the trial differently. Relying on In re Man J. (1983) 149 Cal.App.4th 475
(Man J.), the juvenile court found the charge was the same and granted the prosecution’s
request to amend the wardship petition to specify assault with a “two-by-four with a nail”
rather than a pipe as to count three.
Following the amendment, the juvenile court found all of the allegations true
except the robbery in count one (§ 211). In making this finding, the trial court noted C.S.
was an unreliable reporter, as his testimony was confusing, internally inconsistent, and
inconsistent with prior accounts. The trial court suspected C.S. had some type of mental
disability. Nonetheless, the juvenile court concluded irrespective of the unreliability of
C.S.’s testimony, he was clearly beaten that day, based on his injuries and the 911 call.
C.S. immediately identified the minor as his attacker and that identification was
corroborated by the surveillance video from the supermarket. The surveillance video also
showed minor advancing on C.S. and throwing an object at him. The trial court
concluded, “[The minor] . . . had a motive to attack [C.S.]. He was clearly irked by the
fact that [C.S.] continued to follow the group . . . . [¶] There are no facts which support
self-defense. Even if for the sake of argument [minor] felt justified in his anger of being
followed, there’s no justification for committing a battery under such circumstances.”

5

At the dispositional hearing the juvenile court declared the minor a ward of the
court and granted probation. He was ordered to serve 67 days in juvenile hall with credit
for 67 days.
II. DISCUSSION
A.

The Court Considered Minor’s Self-Defense Claim
The minor contends the trial court violated his due process rights by refusing to

consider his self-defense claim. He argues this error relieved the prosecution of its
burden to prove beyond a reasonable doubt that he was not acting lawfully in selfdefense.
We disagree with the minor’s interpretation of the record. The minor reads the
trial court’s statement, “There are no facts which support self-defense,” as a refusal to
consider the defense. The more accurate reading of that statement is that the trial court
considered the claim and rejected it. The juvenile court did not exclude evidence of selfdefense nor did it preclude counsel from arguing the minor acted in self-defense. The
juvenile court took the matter under submission and reviewed the videos and exhibits
before making its decision. Nothing in the record supports the conclusion the juvenile
court refused to consider minor’s claim of self-defense; rather, the record indicates, based
largely on the surveillance video and 911 calls, the juvenile court rejected that claim as
unpersuasive and unsupported by the evidence. Instead, the court found that D.W. was
angered by C.S. following him and his group of friends, and D.W. was motivated by that
anger to attack C.S. Thus, the court impliedly found that D.W. was the aggressor and
that he did not act out of fear that C.S. would harm him or the group.
B.

Court’s Ruling on Self-Defense
The minor contends the juvenile court’s findings of assault with a deadly weapon

must be reversed, as there was insufficient evidence to prove he did not act in selfdefense.

6

To establish self-defense as a justification for battery, “ ‘the defendant must have
an honest and reasonable belief that bodily injury is about to be inflicted on him.
[Citation.]’ [Citation.] The threat of bodily injury must be imminent [citation], and ‘. . .
any right of self-defense is limited to the use of such force as is reasonable under the
circumstances. [Citation.]’ ” (People v. Minifie (1996) 13 Cal.4th 1055, 1064-1065.)
Imminent harm is not that which appears to be prospective or even in the near future. (In
re Christian S. (1994) 7 Cal.4th 768, 783.) “ ‘ “An imminent peril is one that, from
appearances, must be instantly dealt with.” ’ ” (Ibid., italics omitted.)
Whether defendant’s conduct constituted an act of defense of himself or another,
or an unlawful use of force, is a factual question. Therefore, the appropriate standard of
review is sufficiency of the evidence. (People v. Colbert (1970) 6 Cal.App.3d 79, 85.)
When assessing the sufficiency of the evidence, we consider the entire record in
the light most favorable to the judgment below to determine whether there is substantial
evidence from which a reasonable trier of fact could find the defendant guilty beyond a
reasonable doubt. (People v. Hawkins (1995) 10 Cal.4th 920, 955, abrogated on another
ground in People v. Lasko (2000) 23 Cal.4th 101, 110.) This same standard applies in
reviewing juvenile cases. (In re Matthew A. (2008) 165 Cal.App.4th 537, 540.) We
presume in support of the judgment the existence of every fact the trier could reasonably
deduce from the evidence, including reasonable inferences based on the evidence.
(People v. Tran (1996) 47 Cal.App.4th 759, 771-772.) We do not reweigh evidence or
determine if other inferences more favorable to the defendant could have been drawn
from it. (People v. Stanley (1995) 10 Cal.4th 764, 793.)
The surveillance video showed C.S. following the minor and his friends to the
supermarket. He maintained a significant distance between them, but it appeared there
was some verbal interaction between the minor and C.S., with him turning and pointing
aggressively at C.S. As the group was leaving the store, the minor apparently realized
C.S. was still following them, at a distance, and he walked back towards C.S. He turned
7

back around and continued with his friends. As he passed the pickup truck, he slowed as
he looked in the bed of the truck. He stopped and his friends continued on. The minor
then walked back to the truck and C.S. stopped. Three of the minor’s friends came back
to join him. The minor grabbed something out of the truck and walked back toward C.S.
C.S. turned and walked away, the minor and his friends continued to approach him, then
C.S. removed his belt. The minor continued to approach C.S. as he backed away with his
hands up. As the group continued to approach him, C.S. started swinging the belt around.
The minor and his friends backed up, then the minor stopped, stood his ground with C.S.,
and threw the caulking gun at him. C.S. walked away and the group followed him. Then
the group walked away. Nothing in this video suggests the minor or his friends were
under an imminent threat of bodily injury. To the contrary, there is no evidence C.S.
threatened violence, swung his belt, or pulled a knife until the minor aggressively
approached him.
As to the later incident, where minor hit C.S. with a two-by-four, there is no
evidence the minor had an honest and reasonable belief he was in imminent danger of
bodily harm. There is no evidence defendant threatened violence verbally or physically.
There is no evidence he got any closer to the group than was previously noted in the
surveillance videos. There is no evidence the minor thought C.S. was going to assault
him or his friends. The only evidence as to that charge is C.S.’s testimony and
statements, the 911 call, and the injuries to C.S. In the 911 call, as he was reporting the
group robbed and hit him, he reported one had a stick and was coming toward him and
hitting him. The call was filled with his cries for help.
In sum, there is no evidence in this record that the minor and his friends were in
imminent peril from C.S. that needed to be dealt with instantly. Accordingly, substantial
evidence supports the juvenile court’s determination that the minor did not act in selfdefense.

8

C.

Amendment to Petition
Minor contends the trial court abused its discretion in permitting the amendment

of the petition. He claims this error denied him his due process rights to “prepare and
present a defense to the new offense.”
Due process requires that a minor have adequate notice of the charge so that they
may intelligently prepare a defense. (In re Robert G. (1982) 31 Cal.3d 437, 442.)
Compliance with this requirement mandates that the minor be notified, in writing, of
“ ‘the specific charge or factual allegations to be considered at the hearing, and that such
written notice be given at the earliest practicable time, and in any event sufficiently in
advance of the hearing to permit preparation.’ [Citation.]” (Ibid.) But a juvenile court
may allow an amendment of a wardship petition to correct or make more specific the
factual allegations supportive of the charged offense when the nature of the charge
remains unchanged. (Man J., supra, 149 Cal.App.3d at pp. 479-480.) The court’s
decision to allow amendment of a petition is reviewed for abuse of discretion. (Id. at
p. 481.)
In Man J., the petition alleged that the minor maliciously damaged four vehicles,
all belonging to one victim. At the close of trial, the court amended the petition to
conform to proof: that the vehicles belonged to different individuals. (Man J., supra,
149 Cal.App.3d at p. 478.) The Court of Appeal affirmed and held that the amendment
did not deny the minor due process. (Id. at p. 481.) The court concluded that: “At all
times the minor was on notice as to the charges and the allegations against which he
would have to defend.” (Id. at pp. 479-480.)
Here, the juvenile court determined that its amendment to reflect the weapon was a
two-by-four with a nail, rather than a pipe, was in the nature of a Man J. amendment
because the charging statute remained the same, assault with a deadly weapon; only the
factual allegation in support of the offense charged, the specific weapon used, was
amended. The proof and defenses would be the same as to each. The defense never
9

challenged the type of weapon used. Rather, the defense was that the minor acted in selfdefense, that the minor’s conduct was reasonable, and the prosecution was required to
prove the minor did not act in self-defense. We agree with the court’s analysis and find
no abuse of discretion.
III. DISPOSITION
The order is affirmed.

RENNER, J.

We concur:

MURRAY, Acting
Acting P. J.

HOCH, J.

10

Court of Appeal, Third Appellate District
Andrea K. Wallin-Rohmann, Clerk
Electronically FILED on 2/14/2020 by R. Cervantes, Deputy Clerk

NOT --TO --BE ---------PUBLISHED
---California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
----

In re D.W., a Person Coming Under the Juvenile
Court Law.
THE PEOPLE,

C084673
(Super. Ct. No. JV137775)
ORDER DENYING
PETITION FOR
REHEARING AND
MODIFYING OPINION

Plaintiff and Respondent,
v.
D.W.,

[NO CHANGE IN
JUDGMENT]

Defendant and Appellant.

THE COURT:
Appellant filed a petition for rehearing with this court. It is ordered that the
nonpublished opinion filed herein on January 17, 2020, be modified as follows:
1. At page 2 of the slip opinion, modify the fourth sentence in the first paragraph,
so that the sentence reads:

1

C.S. testified one of the teenagers hit C.S. in the mouth and took his money.
2. At page 2 of the slip opinion, modify the second paragraph to read in its
entirety:
C.S. followed the group to the parking lot of a supermarket. He testified they
turned toward him and attacked him, grabbed tools out the back of a nearby truck, and
threw the tools at him. Those items included a caulking gun, boards, and crutches. C.S.
testified the minor threw several items at him, including the caulking gun, which grazed
C.S.’s elbow. C.S. testified that after the minor threw the caulking gun, C.S. took his belt
off and began swinging it in circles over his head in order to “deter” the group.
3. At page 2 of the slip opinion, following the now modified second paragraph,
add the following third paragraph:
Surveillance footage showed the minor take an item from the back of a truck and
he and the other teens walked toward C.S. C.S. retreated as they continued toward him.
C.S. then removed his belt and began swinging it in the air. The minor stood his ground
and positioned himself as if to engage with C.S., and the minor then threw the item at
C.S. The footage did not show other items being removed from the truck.

4. At page 2 of the slip opinion, following the eighth sentence in the fourth
(previously the third) paragraph that reads “The guard did not recall the
teenager with the cut say that C.S. had cut him, but he believed C.S. had
assaulted him and was prepared to detain C.S.” add the following sentence:
The guard also did not recall the teens claiming C.S. had a knife.

5. Modify the next sentence which reads “The group did not claim C.S. had a
knife and declined to report the incident to the police” to read in its entirety:
The teens declined to report the incident to the police.

2

6. At page 8 of the slip opinion, in the second sentence of the first full paragraph,
modify the sentence to read in its entirety:
There is no evidence C.S. threatened violence verbally or physically.

There is no change in the judgment. Appellant’s petition for rehearing is denied.
BY THE COURT:

MURRAY, Acting
Accting P. J.

ffedL

HOCH, J.

RENNER, J.

3

ATTACHMENT C

SUPREMECOURT

FI LED
APR1 5 2020
Court of Appeal,' Third Appellate District - No. C084673

Jorge Navarrete Clerk

S260891

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re D .W., a Person Coming Under the Juvenile Court Law .

THE PEOPLE, Plaintiff and Respondent,
V.

D.W., Defendant and Appellant.

The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

